IN THE SUPREME COURT OF THE UNITED STATES

TURNER, STEVE DEON
Petitioner
vs.

No:

20-5100

U.S. DISTRICT COURT FOR THE CENTRAL DISTRICT OF
CALIFORNIA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
August 17, 2020
cc:
STEVE DEON TURNER
PRISONER NO. AV-2541
CALIFORNIA CORRECTIONAL INST.
PO BOX 1906
TEHACHAPI, CA 93581

